No. 19-

 

 

IN THE

Supreme Court of the United States

AUTOMOTIVE Bopy PaRTs ASSOCIATION,

Petitioner,
v.

FORD GLOBAL TECHNOLOGIES, LLC,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,151 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 10, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
